IN THE SUPREME COURT OF THE UNITED STATES

No. 19-71

pasneepipsse eae naceseencsaaemecaeeascpacosmeacterscn isos ane atten x
FNU TANZIN, ET AL., PETITIONERS

v.

MUHAMMAD TANVIR, £T AL., RESPONDENTS.
gaesdrpabgtoreuchicvnpcunyebbeuabeseueaacesecnageadpaesceupareesassncepcernerns x

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief for Respondents
(Muhammad Tanvir, et al.) in Opposition to the Petition for Writ of Certiorari contains
8,794 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 10, 2019

ein

Counsel of Record
